NO. 21-52

DTI tie
cpupreme Court of tbe Zfluiteb f§tateo

EMMANUEL EDOKOBI,
Petitioner,
V.

TOYOTA MOTOR CREDIT CORPORATION;
SUNTRUST BANK,
Respondents.
On Petition for a Writ of Certiorari to the
United States. Court of Appeals for the Fourth Circuit
REPLY BRIEF OF PETITIONER

EMMANUEL EDOKOBI
PETITIONER PRO SE
2005 STRATTON DRIVE
PorromAc, MD 20854

(301) 793-2882
EEDOKOBI@YAHOO.COM

AUGUST 27, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

RECEIVW
SEP - 1 2021
OFFICE OF

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES
REPLY BRIEF OF PETITIONER

iv
1

Petitioner's Arguments No. 1:

1

Petitioner's Arguments No. 2:

2

Petitioner's Arguments No. 3:

2

Petitioner's Arguments No. 4:

4

Petitioner's Arguments No. 5:

4

Petitioner's Arguments No. 6:

5

Petitioner's Arguments No. 7:

6

Petitioner's Arguments No. 8:

6

REASONS FOR GRANTING THE PETITION

8

THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE THE FOURTH
CIRCUIT COURT OF APPEALS ERRED WHEN,
IT DISMISSED PETITIONER'S APPEAL WITHOUT CONSIDERING WHETHER; JUDGE GRIMM
WAS JUDICIALLY DISABLED

8

THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE JUDGE
GRIMM WAS JUDICIALLY DISABLED TO HEAR
CASE EDOKOBI V. TOYOTA MOTOR CREDIT
CORPORATION; ET AL PURSUANT TO JUDICIAL
DISABILITY ACT OF 1980, 28 U.S.C. §§ 351364 ("ACT")

9

ii

TABLE OF CONTENTS — Continued
Page
THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE THE U.S.
DISTRICT COURT ERRED IN GRANTING RESPONDENT SUNTRusrs MOTION FOR SUMMARY
JUDGMENT (ECF No.65)
10
THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE THE U.S.
DISTRICT COURT ERRED IN GRANTING RESPONDENT TMCC'S MOTION FOR SUMMARY
JUDGMENT ECF No.66
10
THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE U.S.
DISTRICT COURT ERRED IN DENYING AS
MOOT ECF No.39
12
THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE THE FOURTH
CIRCUIT COURT IGNORED PETITIONER'S
CLAIMS THAT JUDGE GRIMM TREATED PETITIONER WITH ANIMOSITY
13
THE PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED BECAUSE TOYOTA
MOTOR CREDIT CORPORATION ERRED BY
THREATENING PETITIONER
14

111

TABLE OF CONTENTS — Continued
Page
REPLY APPENDIX
TABLE OF CONTENTS
Petitioner's Motion for Leave of the Court to
File Response to TMCC and SunTrust
(April 22, 2019)
la
Letter Order Denying Motion for Leave of the
Court to File Response (April 23, 2019)
4a
Credit Control LLC Letter Received From
SunTrust Bank (November 9, 2018)

7a

Credit Control LLC Letter Received From
SunTrust Bank (January 18, 2019)

9a

Letter from Associated Credit Services., Inc.
(February 1, 2019)

lla

Letter from Emmanuel P. Edokobi
(August 3, 2021)

13a

A Copy of TMCC's Letter
(July 26, 2021)

16a

Letter from Emmanuel P. Edokobi
(August 11, 2021)

18a

Letter from Holland & Knight
(August 9, 2021)

20a

AT&T Bill Payment Rejected by SunTrust
Bank (September 13, 2016)
22a

iv
TABLE OF AUTHORITIES
Page
CASES
Allen v. Dackman,
991 A.2d 1216 (2010)

13

General Tire & Rubber Co. v. Watkins,
331 F.2d 192 (4th Cir. 1964)

13

Hauk v. LVIVV Funding, LLC,
2010 U.S. Dist. LEXIS 117834 (D. Md.
Nov. 5, 2010)

13

Presley v. City of Charlottesville,
464 F.3d 480 (4th Cir. 2006)

11

Scheuer v. Rhodes,
416 U.S. 232, 94 S.Ct. 1683 (1974)

13

U.S. v. Will,
449 U.S. 200, 101 S.Ct. 471, 66 L.Ed.2d
392 (1980)

13

Williams v. Lendmark Fin. Servs.,
No. 15-1976, 2016 U.S. App. LEXIS 12597
(4th Cir. July 8, 2016)

11

STATUTES
28 U.S.C. § 455(a)

8, 9

28 U.S.C. § 455(B)(1)

8

28 U.S.C. §§ 351-364

9

TABLE OF AUTHORITIES - Continued
Page

JUDICIAL RULES
Fed. R. Civ. P. 8(c)

13

Sup. Ct. R. 12.3

1

Sup. Ct. R. 15.3

1

Sup. Ct. R. 29.6

1

1

REPLY BRIEF OF PETITIONER
1.

Petitioner's Arguments No. 1:

The Supreme Court's NOTICE Pursuant to Rule
12.3 was Promptly Given To All Parties Regarding
Petition No. 21-52.
Petitioner argties that Toyota Motor Credit
Corporation ("TMCC") Did Not Respond to A Writ of
Certiorari neither filed a Waiver pursuant to Rule 12.3
that a petition for a writ of certiorari in the aboveentitled case was filed in the Supreme Court of the
United States on July 9, 2021 and placed on the docket
July 14, 2021. Pursuant to Rule 15.3, the due date
for a brief in opposition is Friday, August 13, 2021.
Petitioner argues that TMCC Did Not File It's;
I DO NOT INTEND TO FILE A RESPONSE To
The Petition For A Writ Of Certiorari Unless One Is
Requested By The Court.
The Supreme Court's' WAIVER Was Sent Promptly To All Parties.
Petitioner argues that Petitioner Did Not Receive
A Completed Copy of Supreme Court's WAIVER from
TMCC for Petition No. 21-52.
Petitioner argues that TMCC Did Not File It's;
Corporate Disclosure Statement Pursuant to Supreme
Court Rule 29.6 for Petition No. 21-52.
Petitioner Respectfully Urges Supreme Court to
Grant Petition for A Writ of Certiorari Because
Supreme Court Has Provided All Parties Opportunity

2
to Present their Case and TMCC Chooses to Ignore
to Present Its Own Case for Petition No. 21-52.
Petitioner's Arguments No. 2:
Judge Grimm's Preamble of MEMORANDUM
OPINION AND ORDER Says, "Emmanuel Edokobi
brought this suit against Toyota Motor Credit Corporation and SunTrust Bank regarding two contested
payments of $536.34 ECF No. 98 at 1",
Petitioner argues that Judge Grimm's Preamble
Was Incorrect because the total of two contested payments of $536.34 is $1,072.68.
Respondent's Opposition Preamble Says, "QUESTIONS PRESENTED This case arises out of a dispute
between Petitioner and Respondents regarding a
$536.34 Respondent at 1.
Petitioner argues that Respondent's Preamble
Was Incorrect because Respondent in ECF No. 31 at
page 6 "Admitted Averments (in the Bill of Complaint)
of Paragraph 40 are admitted in part and denied in
part. SunTrust admits that $536.34 was electronically
debited from the SunTrust Checking Account and
paid to Toyota Financial on September 26, 2017, and
that $536.34 was debited from the SunTrust Checking
Account and paid to Toyota Financial on June 27
2018". ECF No. 31 at page 6. ECF No. 2 at page 6.
Petitioner's Arguments No. 3:
Petitioner argues that Respondent emphasizes
repeatedly (at 1-8) those Falsehoods that Respondent
and Judge Grimm Relied On Without Providing
Information That, On March 10, 2016; Petitioner and
Mr. Joseph Hartlove ("HARTLOVE"), SunTrust Bank
Area Branch Manager Reached An Agreement That;

3
Petitioner's SunTrust Personal Checking Account
Number Ending-7206 SHOULD BE DOWNGRADED;
Because, Petitioner's Direct Deposit Had Stopped
Coming Into The Account; Because Petitioner No
Long Works Due To Medical Conditions. Petitioner
at 4-6. ECF No. 39 at 2-3. ECF No. 78 at 1-2.
Petitioner argues that Respondent DID NOT
CONTEST That Petitioner Visited Mr. Hartlove At
His Office On March 10, 2016, And Respondent DID
NOT CONTEST That, Both Petitioner and Mr. Hartlove Reached Agreements On These Issues Briefly
Described Hereunder:
DOWNGRADING Petitioner's SunTrust Bank
Personal Checking Account Number Ending7206 Because, Petitioner's Direct Deposit Had
Stopped Coming Into The Account, Because
Petitioner No Long Works Due To Medical
Conditions.
NO CREDITS Should Be Extended To Petitioner's Downgraded SunTrust Bank Personal
Checking Account Number Ending-7206
Without Petitioner's Approval.
SunTrust Bank Would Be Charging $10.00
Each Month for the Maintenance of Petitioner's Downgraded Personal Checking Account
Number Ending-7206.
There Would Be No Minimum Or Maximum
Amount Requirement To Be Kept In Petitioner's Downgraded SunTrust Personal Checking
Account Number Ending-7206.

4
Petitioner argues that Respondent (at 3, 5) Had
Implemented the Agreement by Charging A $10.00
Maintenance Fee to the Account.
Petitioner argues that Respondent On September
13 2016 Implemented the Agreement by Rejecting
To Pay Petitioner's AT&T BILL PAYMENT in the
amount of $311.57 which was Posted to Petitioner's
Account on September 9, 2016, Pursuant to March 10,
2016 Agreement. A Copy of AT&T BILL PAYMENT
(Re s.App .22a).
Petitioner's Arguments No. 4:
Petitioner argues that March 10, 2016 Agreement
Prevents Respondent and Its Representatives from
Extending Credits of Any Amount to Petitioner's
Account because Petitioner's Account Had Been Downgraded ECF No. 78 at pages 1-2. ECF No. 39 at 2-3.
Petitioner argues that March 10, 2016 Agreement
Supersedes all other Respondent's Previous Agreements
with Petitioner because, Petitioner Lifestyle Has
Completely Changed Due to Medical Condition and
Petitioner's Account Had Been Downgraded ECF No.
78 at pages 1-2.
Petitioner's Arguments No. 5:
Respondent (at 3) falsely claims "Petitioner allowed
the average daily balance to fall below the minimum
amount required to avoid a fee. ECF 65-2 at ¶ 6"
Petitioner argues that March 10, 2016 Agreement
Does Not Require That "There Would Be No Minimum
Or Maximum Amount Requirement To Be Kept In
Petitioner's Downgraded SunTrust Personal Checking
Account Number Ending-7206. Petitioner at 6. ECF
No. 39 at 2-3.

5
6.

Petitioner's Arguments No. 6:

Respondent (at 5) falsely claims "the Account
Statement for the time period 07/27/2018 through
09/25/2018 shows that SunTrust refunded two overdraft
fees".
Petitioner argues that Respondent DID NOT PROVIDE NOTICE TO PETITIONER About the Refunding
of Those Two Overdrafts Charges; And Petitioner Does
Not. Have Access to Petitioner's Account; Because,
Petitioner's Account Had Been Closed On August 3,
2018. Petitioner argues that It Was Absolutely Impossible for Respondent SunTrust to Provide to Petitioner
the Opportunity. to Review His Account on September 25, 2018, Which Was Forty-five (45) Days After
Respondent Closed Petitioner's Account on August 3,
2018.
Respondent (at 5) falsely claims "the Account
Statement showing the Account closing and the overdraft balance of $450.19 was made available electronically for Petitioner's review On September 25, 2018.
ECF 65-2 at ¶ 20.
•
Petitioner argues that Respondent DID NOT
MAKE AVAILABLE NEGATIVE BALANCE OF
$450.19 FOR PETITIONER'S REVIEW ON SEPTEMBER 25, 2018, because; Petitioner Does Not Have
Access to Petitioner's SunTrust Account Because;
Petitioner's Account Had Been Closed by SunTrust
on August 3, 2018. Petitioner Argues That; It Was
Absolutely Impossible for Respondent to Provide to
Petitioner the Opportunity to Review His Petitioner's
Account on September 25, 2018; Which Was Forty-five
(45) Days After Respondent Closed on August 3, 2018.

6
Petitioner's Arguments No. 7:
Respondent (at 5) claims "On 8/15/2018, one day
after the telephone call, SunTrust's Fraud Assistance
Center sent Petitioner a letter stating that it was
again denying his claim. ECF 65-2 at ¶ 18; ECF 65-11".
Petitioner argues that Correct Account of Teleconference that took place on August 14, 2018
between SunTrust's Representative and TMCC's Representative and Petitioner Was Reproduced Verbatim
by Petitioner in ECF 78 at page 18.
Petitioner's Arguments No. 8:
Respondent (at 5) Claims, "Petitioner did not
deposit the $536.34 TMCC refund check into the
SunTrust Account. ECF 65-2 at ¶ 19".
Petitioner argues that Respondent Prevented Petitioner from Depositing TMCC's Check into His Account
as recorded in the Bill of Complaint ECF No. 2 at
page 8.
Petitioner argues that Respondent Prevented Petitioner from Depositing TMCC's Check into His Account
because Respondent was shopping for Collection
Agency that would go after Petitioner and this claim
is substantiated by A Letter Dated November 9, 2018
which Respondent Sent to CREDIT CONTROL LLC
and this Letter was made available to Petitioner
during Documents Product. A Copy of Respondent's
Letter to Credit Control LCC. (Reply.App.7a).
Petitioner argues that Respondent Prevented Petitioner from Depositing TMCC's Check into His Account
because On Monday November 5, 2018 Petitioner
went to SunTrust to Deposit Check in the Amount of

7
$536.34 into Petitioner's Account and Respondent
Rejected the Check.
Petitioner argues that On November 9 2018 Respondent Sent Petitioner's Account for Collection and
those Days and Dates that Petitioner went to SunTrust
to Deposit the Check are recorded in the Motion to
Compel Respondent to Accept TMCC's Check in the
Amount of $536.34 (Reply.App.7a, Petitioner at 18).
Petitioner argues that Respondent Prevented
Petitioner from Depositing TMCC's Check into His
Account because Respondent was shopping for Collection Agency that would go after Petitioner and
this claim is substantiated by A Letter Dated February
1 2019 That Petitioner Received from ASSOCIATED
CREDIT SERVICES, INC., ("ACS").
Petitioner argues that ACS's Agents Were Calling
Petitioner with Different Phone Numbers at Different
Times and Petitioner's Life was in Turmoil for which
Petitioner had to file a Legal action against Respondent
and ACS; Case Pending on Appeal No. 20-1796, Styled:
Emmanuel Edokobi v. SunTrust Bank. A Copy of
Respondent's Letter to ACS. (Reply.App.7a).
Petitioner argues that Respondent's New Admission in the Transcript of February 12, 2020 Conference
Hearing That; $440.19 Was Refunded to Appellant
Prohibits SunTrust From Using $440.19 As A Base
to Seek to Recover $450.19. (Reply.App.7a).

8

REASONS FOR GRANTING THE PETITION
I.

THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE THE FOURTH CIRCUIT
COURT OF APPEALS ERRED WHEN, IT DISMISSED
PETITIONER'S APPEAL WITHOUT CONSIDERING
WHETHER; JUDGE GRIMM WAS JUDICIALLY
DISABLED
Petitioner's Arguments for Petition No 1:

Petitioner argues that Fourth Circuit By Its Unpublished Opinion Ignores To Determine Whether •
Judge Grimm Was Judicially Disabled Under § 455(B)
(1) To Hear Civil Case Edokobi v. Toyota Motor Credit
Corporation et al; Due to Petitioner's Civil Action
Against Judge Grimm, Styled; Emmanuel Edokobi v.
Paul Grimm.
Petitioner Urges the Supreme Court to Grant Petition for A Writ of Certiorari Because, Fourth Circuit
By Its Unpublished Opinion Ignores to Address the
Issue that Judge Grimm's Impartiality Is Questioned;
Under § 455(a); Because, Judge Grimm Sees Petitioner As A Troublemaker For Which Judge Grimm
Imposed Prefiling Injunction Against Petitioner And
Judge Grimm Has REFUSED to Issue His FINAL
ORDER in the Prefiling Injunction Against Petitioner. In The Petitioner's Case Style: Edokobi v. M
& M Mortgage Services Inc., Juan Gonzalez; Mortgage
Specialist, Inc. And It Is Now Over Five (5) Years.

9
II. THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE JUDGE GRIMM WAS
JUDICIALLY DISABLED TO HEAR CASE EDOKOBI V.
TOYOTA MOTOR CREDIT CORPORATION; ET AL
PURSUANT TO JUDICIAL DISABILITY ACT OF 1980,
28 U.S.C. §§ 351-364 ("ACT")
Petitioner's Arguments for Petition No 2:
Petitioner argues that Respondent's Response to
Petition for A Writ of Certiorari No. 2 is Vague and
Fails to Address the Issue that Judge Grimm CANNOT
IN GOOD CONSCIENCE PROVIDE AN UNBIASED
DECISION in the Edokobi v. Toyota Motor Credit
Corporation et al; Due to Petitioner's Action Against
Judge Grimm, styled; Emmanuel Edokobi v. Paul
Grimm and Judge Grimm's Impartiality Is Questioned;
Under § 455(a) As A Result of Petitioner's Action
Against Judge Grimm.
Petitioner argues that Respondent's Response to
Petition for A Writ of Certiorari No. 2 is Vague and
Fails to Address the Issue that Judge Grimm Was
Judicially Disabled to Hear Case Edokobi v. Toyota
Motor Credit Corporation et al, Because Judge Grimm
Was Biased Towards Petitioner For Which Judge
Grimm In His LETTER ORDER ECF No. 42 Made
Numerous "Threats To Petitioner; "On How To Dismiss
Petitioner's Case With Prejudice" And On How To
Impose Court Fines On Petitioner And Judge Grimm
Has Carried Out His Threats By Dismissing Petitioner's Case Edokobi v. Toyota Motor Credit Corporation
et al; With Prejudice; And Imposed Costs Fines On
Petitioner.

10

THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE THE U.S. DISTRICT COURT
ERRED IN GRANTING RESPONDENT SUNTRUST'S
MOTION FOR SUMMARY JUDGMENT (ECF No.65)
Petitioner's Arguments for Petition No 3:
Petitioner argues that Petitioner Has Provided
Resounding Arguments to Deflect Those Respondent's
Falsehoods Statements (at 1-8) which Judge Grimm
Relied on to grant Respondent's Motion for Summary
Judgment ECF No. 65 and those numerous Falsehoods
have been Unmasked and discussed in Petitioner's
Arguments 2 to 8 Above.
Petitioner argues that Petitioner Has Provided
Resounding Arguments 2 to 8 Above by which Petitioner Deflected and Unmasked Those Respondent's
Falsehoods Statements (at 1-8) on which Judge Grimm
Based His Memorandum and Order ECF No. 98.
THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE THE U.S. DISTRICT
COURT ERRED IN GRANTING RESPONDENT
TMCC'S MOTION FOR SUMMARY JUDGMENT ECF
No.66
Petitioner's Arguments for Petition No 4:
Petitioner argues that Judge Grimm Erred In
Dismissing Petitioner's Complaint In Counts 1 through
7, 14, 15, 21 and 22 Against TMCC Without Addressing
Complaint That TMCC Violated Maryland's Credit
Grantor Closed End Credit Provisions (CLEC) And
The Promissory Note By Taking Monthly Payments
In Excess Of The Predetermined Amount In The
Note; And Plaintiffs Claims Are Supported By These
Cases Mentioned Briefly Herein; Williams u. Lendmark

11
Fin. Servs., No. 15-1976, 2016 U.S. App. LEXIS 12597
(4th Cir. July 8, 2016); Presley u. City of Charlottesville,
464 F.3d 480, 483 (4th Cir. 2006), ECF No. 78 Pages
1-18.
Petitioner argues that TMCC Took Five (5)
Different Amounts of Money At Different Times From
Petitioner's Account Without Petitioner's Authorization
And Those Amounts Are Listed Hereunder:
On June 27, 2017, TMCC Took $536.34
From Petitioner's Account And Petitioner Did
Not Authorize Respondent TMCC To Take
$536.34 From Petitioner's Account On June
27, 2017, Because Petitioner Had Already
Paid Petitioner's Car Note In The Amount
Of $268.17 To TMCC On June 27, 2017.
On September 26, 2017, TMCC Took $536.34
From Petitioner's Account And Petitioner Did
Not Authorize Respondent TMCC To Take
$536.34 From Petitioner's Account On September 26, 2017, Because Petitioner Had
Already Paid Petitioner's Car Note In The
Amount Of $268.17 To TMCC On September 26, 2017.
On June 27,. 2018, TMCC Took $536.34 From
Petitioner's Account Number And Petitioner
Did Not Authorize Respondent TMCC To
Take $536.34 From Petitioner's Account on
June 27, 2018; Because Petitioner Had
Already Paid Petitioner's Car Note In The
Amount Of $268.17 To TMCC On June 27
2018.
On May 23 2018, TMCC Took $336.51 From
Petitioner's Account Number on May 23,

12

2018, And Petitioner Did Not Authorize
Respondent TMCC To Take $336.51 From
Petitioner's Account On May 23, 2018; Because Petitioner Had Already Paid Petitioner's Car Note In The Amount Of $268.17 To
TMCC On May 23, 2018.
5. On February 5, 2018, TMCC Took $276.71
From Petitioner's Account Number And
Petitioner Did Not Authorize Respondent
TMCC To Take $276.71 From Petitioner's
Account On February 5, 2018; Because Petitioner Had Already Paid Petitioner's Car
Note In The Amount Of $268.17 To TMCC
On February 5, 2018.
Petitioner argues that Between the Months of
June 27, 2017, and February and Through July 31,
2018, that, TMCC To Take $2,222.24 From Petitioner's
Account Without Petitioner's Authorization And Those
Amounts of Money Were Taken At Different Times
After Petitioner Had Paid His Car Note In The
Amount Of $268.17 To TMCC And TMCC Did Not
Deny Taking Those Different Amounts of Money at
Different Times from Petitioner's Account Without
Petitioner's Authorization
V.

THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE U.S. DISTRICT COURT
ERRED IN DENYING AS MOOT ECF No.39
Petitioner's Arguments for Petition No 5:

Petitioner argues that District Court Did Not
Resolve The Issue Of Lack Of Subject-Matter Jurisdiction; For Which District Court Lacks The Jurisdiction
To Hear Respondent's Counterclaim for Breach of Con-

13

tract Of $450.19; Wherefore; U.S. District Court's
Order Granting Respondent's Counterclaim for Breach
of Contract Of $450.19• IS NULL AND VOID; Pursuant to the U.S. Supreme Court Decisions, in Scheuer
v. Rhodes, 416 U.S. 232, 94 S.Ct. 1683, 1687 (1974); and
U.S. v. Will, 449 U.S..200, 216, 101 S.Ct. 471, 66 L.Ed.
2d 392, 406 (1980).
Petitioner argues that Judge Grimm Erred in
Granting SunTrust's Counterclaim Because, Petitioner
Has Asserted Affirmative Defense of Fraud; And
Respondent's Counterclaim Was Barred by Fraud
because Petitioner's Account DOES NOT QUALIFIED
FOR SUCH CREDITS And Affirmative Defense of
Contributory Negligence Pursuant to Fed. R. Civ. P.
Rule 8(c).
Petitioner argues that Attorney Egeli Is Not
Licensed to Recover This Type of Debit in the State
of Maryland. (See Hauk v. LVNV Funding, LLC, 2010
U.S. Dist. LEXIS 117834, at *11 (D. Md. Nov. 5,
2010), Allen v. Dackman, 991 A.2d, General Tire &
Rubber Co. v. Watkins, 331 F.2d 192 (4th Cir. 1964).
VI. THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE THE FOURTH CIRCUIT
COURT IGNORED PETITIONER'S CLAIMS THAT
JUDGE GRIMM TREATED PETITIONER WITH
ANIMOSITY
Petitioner's Arguments for Petition No 6:
Petitioner argues that Judge Grimm's LETTER
ORDER ECF No. 29 EXPOSES Judge Grimm Treatment of Petitioner with Animosity; Because Judge
Grimm Accepted Respondent's Answer ECF No. 7
and TMCC's Answer ECF No. 8 And Those Respondent

14

and TMCC Answers DID NOT COMPLY With the PreMotion Procedure That Judge Grimm Outlined On
January 29, 2019, Letter Order EEF No. 6.
Petitioner argues that Judge Grimm's LETTER
ORDER ECF No. 37 EXPOSES Judge Grimm Treatment of Petitioner with Animosity because Judge
Grimm Denied Petitioner's Motion ECF No. 36 by
which Petitioner Sought the Leave of the Court to
File a Response to Respondent Amended Answers to
Complaint ECF No. 31. A Copy of ECF No. 36 (Reply.
App.4a). A Copy of ECF No. 37 (Reply.App.la).
Petitioner argues that Judge Grimm's LETTER
ORDER ECF No. 37 EXPOSES Judge Grimm Treatment of Petitioner with Animosity because Judge
Grimm Denied Petitioner's Motion ECF No. 36 by
which Petitioner Sought the Leave of the Court to File a
Response to Respondent Amended Answers to Complaint ECF No. 31. A Copy of ECF No. (Reply.App.la,
Rep ly.App .4a).
VII. THE PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED BECAUSE TOYOTA MOTOR CREDIT
CORPORATION ERRED BY THREATENING
PETITIONER
Petitioner's Arguments for Petition No. 7:
Petitioner argues that TMCC's Threats To Repossess of Petitioner's Nissan Altima 2014; are serious
because on July 26, 2021 Petitioner received a Letter
from TMCC which Falsely Claims That Petitioner
Had Requested That TMCC Stop Communications with
Petitioner. A copy of TMCC's Letter of July 26, 2021
(Reply.App.16a).

15

Petitioner argues that, on August 3, 2021 Petitioner Responded by Refuting TMCC's False Claims.
A Copy of August 3, 2021. (Reply.App.13a).
Petitioner argues that on August 9, 2021 Petitioner
Received a Letter from TMCC's Attorney which
Confirms TMCC's False Claims in TMCC's Letter of
July 26, 2021. A Doily of Holland & Knight's Letter
(Reply.App .16a).
Petitioner argues that on August 11, 2021 Petitioner Responded Holland & Knight's Letter. A Copy
of August 11, 2021. (Reply.App.18a).

Respectfully submitted,
EMMANUEL EDOKOBI
PETITIONER PRO SE
2005 STRATTON DRIVE
POTOMAC, MD 20854
(301) 793-2882
EEDOKOBI@YAHOO.COM

AUGUST 27, 2021

REPLY BRIEF
APPENDIX TABLE OF CONTENTS
Petitioner's Motion for Leave of the Court to File
Response to TMCC and SunTrust
(April 22, 2019)
la
Letter Order• Denying Motion for Leave of the
Court to File Response (April 23, 2019)
4a
Credit Control LLC Letter Received From
SunTrust Bank (November 9, 2018)

7a

Credit Control LLC Letter Received From
SunTrust Bank (January 18, 2019)

9a

Letter from Associated Credit Services., Inc.
(February 1, 2019)

1 la

Letter from Emmanuel P. Edokobi
(August 3, 2021)

13a

A Copy of TMCC's Letter
(July 26, 2021)

16a

Letter from Emmanuel P. Edokobi
(August 11, 2021)

18a

Letter from Holland & Knight
(August 9, 2021)

20a

AT&T Bill Payment Rejected by SunTrust Bank
(September 13, 2016)
22a

Reply.App.la
PETITIONER'S MOTION FOR LEAVE
OF THE COURT TO FILE RESPONSE TO
TMCC AND SUNTRUST
(APRIL 22, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
SOUTHERN DIVISION
EMMANUEL EDOKOBI,
Plaintiff,
v.
TOYOTA MOTOR CREDIT CORPORATION
ET AL.,
Defendants.
Case No.: 8:19-CV-00248-PWG
PLAINTIFF EMMANUEL EDOKOBI BY
HIMSELF AS A PRO SE ("PLAINTIFF") FILES
A MOTION FOR LEAVE OF THE COURT TO
FILE RESPONSES TO AMENDED ANSWER OF
TOYOTA MOTOR CREDIT CORPORATION
("TMCC") AND AMENDED ANSWER OF
SUNTRUST BANK ("SUNTRUST") FOR CASE
NO. 8:19-CV-00248-PWG
Plaintiff .Emmanuel Edokobi By Himself as a
pro se ("Plaintiff') files a Motion for Leave of the Court

Reply.App.2a

to file Responses to Amended Answer of Toyota Motor
Credit Corporation ("TMCC") and Amended Answer of
SunTrust Bank ("SUNTRUST") for Civil Case No.
8:19-CV-00248-PWG and Plaintiff for good cause
asserts hereunder as follows:
Plaintiff seeks Leave of the Court to file
Respond to Amended Answer of TMCC filed in (ECF
No. 30) of Civil Case 8:19-cv-00248-PWG.
Plaintiff seeks Leave of the Court to file
Respond to Amended Answer of SunTrust Bank filed
in (ECF No. 31) of Civil Case No. 8:19-cv-00248-PWG.
Plaintiff seeks Leave of the Court to file
Responses to Amended Answers of TMCC and Sun-Trust
because, Plaintiff ha's been waiting to receive Court
Order that will enable Plaintiff to file; Plaintiffs
Responses to Amended Answers of TMCC and SunTrust.
Plaintiff seeks Leave of the Court to file
Responses to Amended Answers of TMCC and SunTrust because Judge Grimm's Letter Order Dated
March 20, 2019 did not provide date on when Plaintiff
should file Responses to Amended Answers of TMCC
and SunTrust.
Plaintiff seeks Leave of the Court to file Responses to Amended Answers of TMCC and SunTrust because; Plaintiff did not receive information from Clerk
of the Court [Felicia C. Cannon], regarding the due
date for Plaintiffs Responses to Amended Answers of
TMCC and SunTrust,
Plaintiff seeks Leave of the Court to file
Responses to Amended Answers of TMCC and SunTrust
because, Plaintiff is• required to provide Plaintiffs
Responses to Amended Answers of TMCC and SunTrust

Reply.App.3a

and that; Plaintiff Does Not Want Judge Grimm to
Reject Plaintiffs Response as Judge Grimm had done
with the Plaintiffs Response to SunTrust's Counterclaim.
Plaintiff seek's Leave of the Court to file Responses to Amended Answers of TMCC and SunTrust because, Judge Grimm Allowed SunTrust to file
Counter-claim against Plaintiff Without Seeking Leave
of the Court before filing the Counter-claim.
Plaintiff seeks Leave of the Court to file Responses to Amended Answers of TMCC and SunTrust because, there was no reason for Judge to Allow SunTrust to file Counterclaim against Plaintiff Without
Seeking Leave of the Court and that; Judge Grimm
could not accept Plaintiffs Response to SunTrust's
Counterclaim.
Wherefore, the foregoing considered, Plaintiff
requests for permission of the Court to file Responses
to Amended Answers of TMCC and SunTrust.

Respectfully Submitted,

/s/ Emmanuel Edokobi
Pro Se
2005 Stratton Drive
Potomac, Maryland 20854
Telephone Cell: 301-793-2882
E-mail: emmanue12040@gmail.com

Reply.App.4a

LETTER ORDER DENYING MOTION FOR
LEAVE OF THE COURT TO FILE RESPONSE
(APRIL 23, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
RE: Edokobi v. Toyota Motor Credit Corp. et al.
8:19-cv-00248-PWG
Dear Counsel and Mr. Edokobi:
Plaintiff Emmanuel Edokobi has filed a motion
for leave to file "responses" to the amended answers
that Defendants Toyota Motor Credit Corp. and SunTrust Bank recently filed in compliance with this
Court's March 20, 2019 letter order. ECF No. 36.
I will discuss the merits of Plaintiffs motion
momentarily. First, though, I remind Plaintiff yet
again that I expect full compliance with my January
29, 2019 letter order regarding the filing of motions.
As I have previously noted, the letter order requires
any party wishing to file a motion to first serve on all
parties and file with the Court a letter of no more than
three pages, single spaced, describing the planned
motion and briefly summarizing the factual and legal
support for it. ECF No. 6. Plaintiffs filing, while less
than three pages, is not a pre-motion letter — it is a
motion. I have excused Plaintiff's noncompliance with
the Court's pre-motion procedure in the past, see ECF
No. 29, and I will do so again now, but I caution Plaintiff that his continued failure to strictly comply with
orders of this Court may subject him to sanctions for
contempt.

Reply.App.5a
With that said, I turn to the merits of Plaintiffs
motion. A reply to an answer is an uncommon
pleading and is permitted only "if the court orders
one." Fed. R. Civ. P. 7(a)(7); see Garner v. Morales, 237
F.R.D. 399, 400 (S.D: Tex. 2006). One reason they are
often thought to be unnecessary is that the Federal
Rules of Civil Procedure require courts to treat allegations raised in an answer as though they had been
denied. See Fed. R. Civ. P. 8(b)(6). Courts also
recognize that weaknesses or inconsistencies in the
defense's case are likely to be revealed in pretrial discovery—a process that, I note, has already commenced
in this case. See Johnson v. Balt. City Police Dep't, No.
WDQ-12-646,. 2013 WL 1833021 *3 (D. Md. Apr. 30,
2013).
Plaintiff has not persuaded me that a reply to
Defendants' answers would help secure a just, speedy,
and inexpensive resolution of this case. I am therefore
denying his request.
Separately, I note that one of the reasons Plaintiff cites as a reason to allow the reply is that he "does
not want Judge Grimm to reject Plaintiffs response as
Judge Grimm had done with the Plaintiffs response to
SunTrust's Counter-claim." ECF No. 36. Although
Plaintiff appears to be confused about the difference
between a "response" and an "answer," his statement
suggests to me that he intended to file an answer to
SunTrust's counterclaim. The Federal Rules require a
party to serve an answer to a counterclaim "within 21
days after being served with the pleading that states
the counterclaim." Fed. R. Civ. P. 12(a)(1)(B). That
time has now passed. Recognizing, though, that Plaintiff is unrepresented by counsel and that he is
apparently under the impression that he did attempt

Reply.App.6a

to comply with the rule, I am extending the deadline
to May 14, 2019. Plaintiff will have until that date to
file an answer to SunTrust's counterclaim. His answer
must comply with Rule 8(b) and must admit or deny
the allegations in SunTrust's counterclaim (ECF No.
15).
Although informal, this is an Order of the Court
and shall be docketed as such.

Sincerely,
/s/

Paul W. Grimm
United States District Judge

Reply.App.7a

CREDIT CONTROL LLC LETTER
RECEIVED FROM SUNTRUST BANK
(NOVEMBER 9, 2018)
CREDIT CONTROL, LLC
PO Box 34111
Memphis TN 38184-0111
Emmanuel P. Edokobi
2005 Stratton Dr
Potomac, MD 20854-6137
Date: November 9, 2018
CC Account#:*14229395
Balance Due: $480.19
Current Creditor Name: SUNTRUST BANK INC
Principal Balance: $440.19
Fees: $40.00
Total Due: $480.19
CC Account#: 14229395
Current Creditor Account#: XXXXXXXXX7206
The above referenced delinquent account has
been placed with this office for collection. As of the
date of this letter, you owe $480.19. For further information, write the undersigned or call (800)-829-7750.
Secure online access to your account placed with
Credit Control, LLC for collection is now available.
Online account access will allow you to view your
balance, see your last payment amount and selfmanage resolution of this debt
To pay online go to the secure login payments2
.credit-control.com where you can enter your personalized username and password. If you have not
yet created your username login ID and password,

Reply.App.8a

click the New User link located on the login page and
enter the information required to create your online
account. Also,. be sure to use your private access code
provided here when managing your account Your
access code is: 1.8267421.461 Your Credit Control,
LLC # is: D-1-14229395
This does not offset your rights as set forth below.
This communication is from a debt collector and
is an attempt to collect a debt. Any information
obtained will be used for that purpose.
Unless you, within 30 days after receipt of this
notice, dispute the validity of the debt, or any portion
thereof, the debt will be assumed to be valid by this
office. If you notify this office in writing within the 30day period that the debt, or any portion thereof, is
disputed, this office will obtain verification of the debt
or a copy of a judgment against you and a copy of such
verification or judgment will be mailed to you by this
office. Upon your written request within the 30-day
period, this office will provide you with the name and
address of the original creditor, if different from the
current creditor.

Reply.App.9a

CREDIT CONTROL LLC LETTER
RECEIVED FROM SUNTRUST BANK
(JANUARY 18, 2019)
CREDIT CONTROL, LLC
PO Box 34111
Memphis TN 38184-0111
Emmanuel P. Edokobi
2005 Stratton Dr
Potomac, MD 20854-6137
Date: January 18, 2019
CC Account#: 14229395
Balance Due: $480.19
Current Creditor Name: SUNTRUST BANK INC
CC Account#: 14229395
Balance Due: $480.19
Sometimes difficult situations arise that can
cause financial hardship. We want to help you resolve
your account and we are authorized to offer you the
below affordable options.
Pay 80% of the current balance in 1 payment
of $384.15 on or before March 1, 2019.
Pay 85% of the current balance in 2 consecutive
monthly payments of $204.08 with your first payment
to begin on or before March 1, 2019.
Pay 90% of the current balance in 3 consecutive
monthly payments of $144.06 with your first payment
to begin on or before March 1, 2019.
Take advantage of one of these options to move
you closer to debt reduction and less financial worry!
Upon completion of one of the options above and

Reply.App.10a

clearance through the banking system, your account
will be considered resolved. We are not obligated to
renew this offer.
To pay online go to the secure login payments2
.credit-control.com where you can enter your personalized username and password. If you have not yet
created your username login ID and password, click
the New User link located on the login page and enter
the information required to create your online
account. Also, be sure to use your private access code
provided here when managing your account. Your
access code is: 1.8267421.461 Your Credit Control,
LLC # is: D-1-14229395
This settlement may have tax consequences.
Please consult with a tax professional if you have any
questions.
This communication from a debt collector is an
attempt to collect a debt. Any information obtained
will be used for that purpose

Reply.App.11a

LETTER FROM
ASSOCIATED CREDIT SERVICES., INC.
(FEBRUARY 1, 2019)

•
ASSOCIATED
SERVICE'S. INC.
PO Box 5171
Westborough MA 01581-5171
PERSONAL & CONFIDENTIAL
Emmanuel P Edokobi
2005 Stratton Dr
Potomac, MD 20854-6137
Creditor: SUN TRUST BANK
Our Account#: 13260336
Principal Balance: $480.19
Interest: $0.00
Fees: $0.00
Balance Due: $480.19
Creditor Account #: 1000151037206
Your account has been listed with our office for
collection.
Contact (800) 962-9898.
Unless you notify this office within 30 days after
receiving this notice that you dispute the validity of
the debt or any portion thereof, this office will assume
the debt is valid. If you notify this office in writing
within 30 days from receiving this notice that you
dispute the validity of the debt or any portion
thereof, this office will obtain verification of the debt
or obtain a copy of a judgment and mail you a copy of
such judgment or verification. If you request this office

Reply.App.12a

in writing within 30 days after receiving this notice,
this office will provide you with the name and address
of the original creditor, if different from the current
creditor.

Reply.App.13a
LETTER FROM
EMMANUEL P. EDOKOBI
(AUGUST 3, 2021)
Emmanuel P. Edokobi
2005 Stratton Drive
Potomac, Maryland 20854
Phone: 301-793-2882
Fax: 301-545-2132
E-mail: emmanue12040@gmail.com
Account Number 006-6680928
To: Toyota Motor Credit Corporation ("TMCC")
P.O. Box 9490
Cedar Rapids, IA 52409-9490
Re: Refuting Toyota Motor Credit Corporation's
("TMCC") False Claims Against Me as to
Contents of the TMCC's Letter Dated July
26, 2021
Dear Toyota Motor Credit Corporation ("TMCC"),
I am by this Letter Refuting Toyota Motor Credit
Corporation's ("TMCC") False Claims Against Me as
to Contents of the TMCC's Letter Dated July 26, 2021,
through which TMCC Falsely Claims That I Had
Requested That Toyota Motor Credit Corporation's
("TMCC") stop all further communication with me
regarding the above reference account. A Copy of
TMCC's is attached to this Letter for your reference.
I am by this Letter Refuting Toyota Motor Credit
Corporation's ("TMCC") False Claims as to contents of
the TMCC's Letter Dated July 26, 2021, because; I
Did Not At Any Time Request Toyota Motor Credit

Reply.App.14a

Corporation's (TMCC) Stop All Further Communication With Me Regarding The Above Reference Account.
I am by this Letter Challenging Toyota Motor
Credit Corporation to provide evidence that I Had
Requested That Toyota Motor Credit Corporation's
(TMCC) Stop all further communication with me
regarding the above reference account, because; I Did
Not At Any Time Request Toyota Motor Credit
Corporation's (TMCC) Stop All Further Communication
With Me Regarding The Above Reference Account.
I am by this Letter Requesting That Toyota Motor
Credit Corporation (TMCC) Should Withdraw Its Letter
Dated July 26, 2021, because; I Did Not At Any Time
Request Toyota Motor Credit Corporation's (TMCC)
Stop All Further Communication With Me Regarding
The Above Reference Account.
I am by this Letter making it abundantly that, if
Toyota Motor Credit Corporation (TMCC) Refuses to
Withdraw Its Letter Dated July 26, 2012 With False
Claims Against Me, That, I Will Submit Toyota Motor
Credit Corporation's (TMCC) Letter With False Claims
Against Me To The United States Supreme Court In
The Case Docket of Emmanuel Edokobi, Petitioner v.
Toyota Motor Credit Corporation, et al., With the
United States Court of Appeals for the Fourth Circuit
No. 20-1243 (8:19-cv-00248-PWG), And Petition For A
Writ Of Certiorari No. 21-52.

Rep ly.App .15a
Respectfully Submitted,
/s/ Emmanuel Edokobi
2005 Stratton Drive
Potomac, Maryland 20854
Telephone Cell: 301-793-2882
Office• 240-200-6094
Fax: 301-545-2132
E-mail: emmanue12040@gmail.com

Reply.App.16a

A COPY OF TMCC'S LETTER
(JULY 26, 2021)

TOYOTA
FINANCIAL SERVICES

P.O. Box 9490
Cedar Rapids. IA 52409-9490
MB 01 008446 95540 B 32 0
Emmanuel P. Edokobi
2005 Stratton Drive
Potomac, Maryland 20854
Account Number: 006-6680928
Dear Emmanuel P. Edokobi,
You recently requested that Toyota Motor Credit
Corporation ("TMCC") stop all further communication
with you regarding the above referenced account. This
letter is being sent to confirm that TMCC will honor
your request (except for any future notices that TMCC
may be required to give you by law).
If you have previously registered your account at
Toyota financial .com you must reregister your account
through our website if you still want online access to
your account. We will continue to honor your request
that you not be contacted for collection purposes.
if you did not make this request or we have
misunderstood your instructions, please notify us
immediately at 800-279-9032. Also, if you change your
mind and would lilee us to re-establish communication, please send us a letter informing us of that fact
at:

Reply.App.17a

Toyota Motor Credit Corporation
P.O. Box 9490
Cedar Rapids, IA 52409-9490

All rights and remedies of TMCC are reserved.

Sincerely,

Toyota Motor Credit Corporation
800-279-9032

Reply.App.18a
LETTER FROM
EMMANUEL P. EDOKOBI
(AUGUST 11, 2021)
Emmanuel P. Edokobi
2005 Stratton Drive
Potomac, Maryland 20854
Phone: 301-793-2882
Fax: 301-545-2132
E-mail: emmanue12040@gmail.com
Account Number 006-6680928
To: Toyota Motor Credit Corporation ("TMCC")
P.O. Box _9490
Cedar Rapids, IA 52409-9490
Re: Response to Toyota Motor Credit Corporation's ("TMCC") Attorney Letter Dated August
9, 2021
Dear Toyota Motor Credit Corporation ("TMCC"),
That I am by this Letter Responding to Toyota
Motor Credit Corporation's ("TMCC") Attorney Letter
Dated August 9, 2021, and that, I am standing
firmed in my claims in my previous letter August 3,
2021, that, I Did Not Instruct Toyota To Stop Calling
Me. A Copy of TMCC's Attorney Letter Dated August
9, 2021, is attached to this Letter for your reference.
That I have asserted in this Letter that, through
Email I have provided to Karin Oko, at Holland &
Knight 50 North Laura Street, Suite 3900 Jacksonville,
FL 32202; Email: Oko@hklaw.com, Two Different
Recorded Audio Clips that I had with Toyota Representatives regarding the discussions of my account
number 006-6680928.

Rep ly.App.19a

That I have asserted in this Letter that, My
Account Discussions with Toyota's Representatives
should be recorded, and as I have stated very clearly
in those Two Different Recorded Audio Clips that I
had with Two Different Toyota Representatives and
that I have made available through Email to Karin
Oko at Holland & Knight those Audio Clips.
That I have asserted through this Letter that,
Toyota records the discussions on my account with me
and that, I am Legally Permitted by the Maryland Law
to Record my account discussions with Toyota's representatives
That I have asserted through this Letter that,
Toyota does not want me to record my account discussions with Toyota's representatives because, Toyota
is making Bogus Claims.
That I have asserted through this Letter that,
Toyota should call me at any time and that, Toyota
should be ready and willing to allow me to record my
account discussions with Toyota's representative, because Toyota records my account discussions with
Toyota.

Respectfully Submitted,

/s/ Emmanuel Edokobi
2005 Stratton Drive
Potomac, Maryland 20854
Telephone Cell: 301-793-2882
Office: 240-200-6094
Fax: 301-545-2132
E-mail: emmanue12040@gmail.com

Reply.App.20a

LETTER FROM HOLLAND & KNIGHT
(AUGUST 9, 2021)

Holland & Knight
50 Nati Lease Snot sire 3303 I Jeckscrnie, R_32202 I T 901.353.2060 I F 904.358.1872
Hard At KrIght LLP wentlictartsorn

Karin Oko
+1 904-798-7351
Karin. Oko@hklaw.com
Via UPS Delivery
Emmanuel P. Edokobi
2005 Stratton Drive
Potomac, MD•20854
Re: Toyota Motor Credit acct no. 006-6680928
Dear Mr. Edokobi:
The undersigned is in receipt of your correspondence dated August 3, 2021 directed to my client,
Toyota Motor Credit Corporation ("TMCC"). You reference in that correspondence that TMCC improperly
sent you a letter dated July 26, 2021 wherein it advised
that it would cease further communication with you
pursuant to your request. You indicate in your August
3, 2021 letter that you did not request TMCC to cease
communication with you. Please note that pursuant to
TMCC's call records, on June 1, 2021 and then again
on July 23, 2021, you directed TMCC to stop calling
you. As a result, the July 26, 2021 letter was
generated and sent to you.
TMCC's July 26, 2021 letter provided that if you
did not make such a request or if TMCC misunderstood
your instruction, you are to contact TMCC immediately.

Reply.App.21a

If you would like TMCC to re-establish communication
with you, please send such a request in writing
informing them of this direction to:

Toyota Motor Credit Corporation
P.O. Box 9490
Cedar Rapids, IA 52409-9490
[***]
Emmanuel P. Edokobi
August 9, 2021
Page 2
I ask that you provide a copy of your written
request to re-establish communication to the undersigned as well.

Sincerely yours,

/s/ Karin Oko
HOLLAND & KNIGHT LLP

Reply.App.22a

AT&T BILL PAYMENT
REJECTED BY SUNTRUST BANK
(SEPTEMBER 13, 2016)

SWNun

SunTrust Bank
P.O. Box 607039
Orlando, FL 32860-7039

Emmanuel Edokobi •
2005 Stratton Dr
Potomac, MD 20854
Re: Account/Card Number ending: 7206
Case Number: 2870945
Dear Emmanuel Edokobi:
Thank you for the inquiry concerning your
account with SunTrust Bank.
A review of your account shows the credit from
AT T*BILL PAYMENT in the amount of $311.57 was
posted to your account on 9/9/2016. Based on this
information, we are unable to honor your claim for the
transaction(s).
Should you have any questions or require additional information, please contact our office at 1.800.
447.8994.

Sincerely,

Fraud Assistance Center

